Office of Material Loss Reviews
Report No. MLR-11-011


Material Loss Review of Crescent Bank and
Trust Company, Jasper, Georgia




                                  January 2011
                                      Executive Summary

                                      Material Loss Review of Crescent Bank and
                                      Trust Company, Jasper, Georgia
                                                                                      Report No. MLR-11-011
                                                                                               January 2011

Why We Did The Audit

On July 23, 2010, the Georgia Department of Banking and Finance (GDBF) closed Crescent Bank and
Trust Company (Crescent), Jasper, Georgia, and named the FDIC as receiver. On July 29, 2010, the
FDIC notified the Office of Inspector General (OIG) that Crescent’s total assets at closing were
$974.9 million and the estimated loss to the Deposit Insurance Fund (DIF) was $240.8 million. As of
December 31, 2010, the estimated loss had increased to $279.8 million. As required by section 38(k) of
the Federal Deposit Insurance (FDI) Act, and as amended by the Dodd-Frank Wall Street Reform and
Consumer Protection Act, the OIG conducted a material loss review of the failure.

The objectives were to (1) determine the causes of Crescent’s failure and the resulting material loss to the
DIF and (2) evaluate the FDIC’s supervision of the institution, including the FDIC’s implementation of
the Prompt Corrective Action (PCA) provisions of section 38 of the FDI Act.


Background

Crescent was established in August 1989 as a state-chartered nonmember bank. The institution was
wholly owned by the Crescent Banking Company, a publicly traded one-bank holding company.
Crescent’s principal executive offices were headquartered in Jasper, which is located approximately 60
miles north of Atlanta, Georgia. In addition to its main office, the bank operated 10 branches in Georgia.

The institution’s lending activities historically focused on commercial real estate (CRE) in its primary
market area of northern Georgia. In 2003, the bank sold its mortgage banking operations and began
emphasizing residential acquisition, development, and construction (ADC) loans. In April 2005, Crescent
acquired Futurus Financial Services, Inc. (Futurus Financial) and Futurus Bank, N.A., a wholly-owned
subsidiary of Futurus Financial. Futurus Financial was a one-bank holding company with approximately
$56 million in assets. Futurus Bank, N.A. operated one office in Alpharetta, Georgia and a commercial
lending office in Loganville, Georgia. The acquisition provided Cresent an increased presence in the
Atlanta metropolitan area.


Audit Results

Causes of Failure and Material Loss

Crescent failed primarily because its Board and management did not effectively manage the risks
associated with the institution’s aggressive growth and heavy concentration in ADC loans. Notably,
Crescent did not maintain capital at levels that were commensurate with the increasing risk in its loan
portfolio, reducing the institution’s ability to absorb losses due to unforeseen circumstances. Lax
oversight of the lending function also contributed to the asset quality problems that developed when
economic conditions in Crescent’s lending markets deteriorated. Specifically, the bank exhibited weak
ADC loan underwriting, credit administration, and related monitoring practices. Further, Crescent relied
on non-core funding sources, particularly out-of-market and brokered deposits, to support its lending
activities and maintain adequate liquidity. These funding sources became restricted when Crescent’s
credit risk profile deteriorated, straining the institution’s liquidity position.



                                 To view the full report, go to www.fdicig.gov
   Executive Summary
                                     Material Loss Review of Crescent Bank and
                                     Trust Company, Jasper, Georgia
                                                                                     Report No. MLR-11-011
                                                                                              January 2011

Crescent’s heavy concentration in ADC loans, coupled with weak risk management practices, made the
institution vulnerable to a sustained downturn in the Georgia real estate market. During 2007, conditions
in Crescent’s primary lending areas began to decline. By year-end 2008, the quality of Crescent’s loan
portfolio had deteriorated significantly, with the majority of problems centered in ADC loans. Further
deterioration occurred in 2009. The associated provisions for loan losses depleted Crescent’s earnings,
eroded its capital, and strained its liquidity. The GDBF closed Crescent in July 2010 because the
institution was unable to raise sufficient capital to support its operations.

The FDIC’s Supervision of Crescent

The FDIC, in coordination with the GDBF, provided ongoing supervisory oversight of Crescent through
regular on-site examinations, a visitation, and various offsite monitoring activities. Through its
supervisory efforts, the FDIC identified risks in the bank’s operations and brought these risks to the
attention of the institution’s Board and management through examination and visitation reports and
correspondence. Such risks included the bank’s significant concentration in ADC loans, weak loan
underwriting and credit administration practices, and reliance on non-core funding sources. The FDIC
and the GDBF also made numerous recommendations for improvement and imposed informal and formal
enforcement actions.

A general lesson learned with respect to weak risk management practices is that early supervisory
intervention is prudent, even when an institution is considered Well Capitalized and has relatively few
classified assets. In this regard, the FDIC could have placed greater emphasis on Crescent’s risk
management practices when determining supervisory responses to key risks identified during earlier
examinations.

The FDIC could have recommended that Crescent reduce its ADC loan exposure and/or hold higher
levels of capital commensurate with the bank’s risk profile as early as the May 2006 examination. We
recognize that (1) Crescent’s financial condition was satisfactory and its lending markets were favorable
at that time and (2) the December 2006 interagency guidance (Joint Guidance) that defined criteria for
identifying institutions potentially exposed to significant CRE and ADC concentration risk had not yet
been issued. Nevertheless, the institution was experiencing rapid growth, its ADC loan concentration was
high, and its capital level was equal to the minimum threshold for maintaining a Well Capitalized status.
Increased emphasis on Crescent’s capital adequacy during the June 2007 GDBF examination may also
have been warranted given the bank’s elevated risk profile and less than Well Capitalized status. By that
time, the Joint Guidance had been issued, providing examiners additional support for taking such action.

Further, a different supervisory approach to Crescent’s reliance on non-core funding sources, particularly
brokered deposits, to support lending activities may also have been warranted. Specifically, the FDIC
approved a brokered deposit waiver in December 2006 that permitted the bank to increase its brokered
deposits for the purpose of funding loan growth. As noted earlier, the bank’s financial condition was
satisfactory and its lending markets were favorable. In retrospect, however, the waiver allowed the bank
to assume additional risk. Disapproving the waiver may have influenced the bank to reduce its ADC loan
exposure and/or raise additional capital.

Examiners became sharply critical of Crescent’s risk management practices during the June 2008 and
July 2009 examinations. In addition, the FDIC issued a Cease and Desist (C&D) Order in May 2009 to
address the bank’s weak risk management practices. However, by that time, the institution’s lending


                                To view the full report, go to www.fdicig.gov
   Executive Summary
                                      Material Loss Review of Crescent Bank and
                                      Trust Company, Jasper, Georgia
                                                                                      Report No. MLR-11-011
                                                                                               January 2011

markets were rapidly deteriorating, making remedial efforts difficult. A more proactive supervisory
approach, as discussed above, may have influenced the bank to curb its ADC lending, increase its capital
levels, and strengthen its risk management controls before the Georgia real estate market deteriorated,
potentially mitigating, to some extent, the financial problems experienced by the bank.

The FDIC has taken a number of steps to enhance its supervision program based on the lessons learned
from financial institution failures during the financial crisis. With respect to the issues discussed in this
report, the FDIC has, among other things, recently provided training to its examination workforce
wherein the importance of assessing an institution's risk management practices on a forward-looking basis
was emphasized. The FDIC has also issued supervisory guidance addressing risks associated with ADC
lending and funds management practices.


Management Response
After we issued our draft report, management provided additional information for our consideration, and
we revised our report to reflect this information, as appropriate. On January 28, 2011, the Director,
Division of Supervision and Consumer Protection (DSC), provided a written response to the draft report.
In the response, DSC reiterated the causes of Crescent’s failure and the supervisory activities described in
our report. The response also noted that the FDIC issued a Financial Institution Letter (FIL) in 2008,
entitled Managing Commercial Real Estate Concentrations in a Challenging Environment, that re-
emphasized the importance of robust credit risk-management practices and set forth broad supervisory
expectations. In addition, the response referenced a 2007 FIL, entitled The Use of Volatile or Special
Funding Sources by Financial Institutions that are in a Weakened Condition. Among other things, this
FIL states that FDIC-supervised institutions that engage in aggressive growth strategies or rely
excessively on a volatile funding mix are subject to heightened off-site monitoring and on-site
examinations that are more extensive than those applicable to other institutions.




                                 To view the full report, go to www.fdicig.gov
                                 Contents

Background                                                                2

Causes of Failure and Material Loss                                       3
 Aggressive Growth and ADC Loan Concentration                             3
 Capital Levels Relative to CRE and ADC Loan Growth                       7
 Oversight of the Lending Function                                        7
 Reliance on Non-core Funding Sources                                     9

The FDIC’s Supervision of Crescent                                        11
 Supervisory History                                                      12
 Supervisory Response to Crescent’s Weak Risk Management Practices        13
 Implementation of PCA                                                    19

Corporation Comments                                                      21

Appendices 
 1. Objectives, Scope, and Methodology                                    22
 2. Selected Risk Management Weaknesses and Recommendations by            25
    Examination
 3. Glossary of Terms                                                     26
 4. Acronyms                                                              29
 5. Corporation Comments                                                  30

Tables
 1. Financial Information for Crescent, 2004 to 2010                       2
 2. Onsite Examinations and Visitation of Crescent                        12
 3. Crescent’s Capital Levels, 2005 to 2010                               19

Figures
  1. Composition and Growth of Crescent’s Loan Portfolio, 2003 to 2009    4
  2. Crescent’s ADC Loan Concentration Compared to Peer Group             5
  3. Crescent’s Net Charge-offs on Loans and Leases as of June 30, 2010   6
  4. Trend in Crescent’s Tier 1 Capital Relative to CRE and ADC Loan
     Growth                                                                7
Federal Deposit Insurance Corporation                                               Office of Material Loss Reviews
3501 Fairfax Drive, Arlington, VA 22226                                                  Office of Inspector General

DATE:                                     January 28, 2011

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection

                                          /Signed/
FROM:                                     Stephen M. Beard
                                          Assistant Inspector General for Material Loss Reviews

SUBJECT:                                  Material Loss Review of Crescent Bank and Trust Company,
                                          Jasper, Georgia (Report No. MLR-11-011)


As required by section 38(k) of the Federal Deposit Insurance Act (FDI) Act, and as
amended by the Dodd-Frank Wall Street Reform and Consumer Protection Act (the
Financial Reform Act), the Office of Inspector General (OIG) conducted a material loss
review (MLR) of the failure of Crescent Bank and Trust Company (Crescent), Jasper,
Georgia. The Georgia Department of Banking and Finance (GDBF) closed the institution
on July 23, 2010, and named the FDIC as receiver. On July 29, 2010, the FDIC notified
the OIG that Crescent’s total assets at closing were $974.9 million and the estimated loss
to the Deposit Insurance Fund (DIF) was $240.8 million. As of December 31, 2010, the
estimated loss had increased to $279.8 million. The estimated loss exceeds the
$200 million MLR threshold for losses occurring between January 1, 2010 and
December 31, 2011, as established by the Financial Reform Act.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency. The report
is to consist of a review of the agency’s supervision of the institution, including the
agency’s implementation of FDI Act section 38, Prompt Corrective Action (PCA); a
determination as to why the institution’s problems resulted in a material loss to the DIF;
and recommendations to prevent future losses.

The objectives of this material loss review were to (1) determine the causes of Crescent’s
failure and the resulting material loss to the DIF and (2) evaluate the FDIC’s supervision
of Crescent, including the FDIC’s implementation of the PCA provisions of section 38 of
the FDI Act. This report presents our analysis of Crescent’s failure and the FDIC’s efforts
to ensure that the Board of Directors (Board) and management operated the institution in a
safe and sound manner. The report does not contain formal recommendations. Instead, as
major causes, trends, and common characteristics of institution failures are identified in
our material loss reviews, we will communicate those to FDIC management for its
consideration. As resources allow, we may also conduct more in-depth reviews of specific
aspects of the FDIC’s supervision program and make recommendations as warranted.1
1
 A further discussion of OIG-related coverage of financial institution failures can be found in the Objectives,
Scope, and Methodology section of our report.
Appendix 1 contains details on our objectives, scope, and methodology. Appendix 2
contains a summary of risk management weaknesses and recommendations contained in
examination reports for Crescent. Appendix 3 contains a glossary of key terms, including
material loss, the FDIC’s supervision program, and the Uniform Financial Institutions
Rating System, otherwise known as the CAMELS ratings. Appendix 4 contains a list of
acronyms. Appendix 5 contains the Corporation’s comments on our draft report.


Background
Crescent was established in August 1989 as a state-chartered nonmember bank. The
institution was wholly owned by the Crescent Banking Company, a publicly traded
one-bank holding company. Crescent’s principal executive offices were headquartered in
Jasper, which is located approximately 60 miles north of Atlanta, Georgia. In addition to
its main office, the bank operated 10 branches in Georgia.

Crescent’s lending historically focused on commercial real estate (CRE) in its primary
market area of northern Georgia. In 2003, the bank sold its mortgage banking operations
and began emphasizing residential acquisition, development, and construction (ADC)
loans. In April 2005, Crescent acquired Futurus Financial Services, Inc. (Futurus
Financial) and Futurus Bank, N.A., a wholly owned subsidiary of Futurus Financial.
Futurus Financial was a one-bank holding company with approximately $56 million in
assets. Futurus Bank, N.A. operated one office in Alpharetta, Georgia and a commercial
lending office in Loganville, Georgia. The acquisition provided Crescent an increased
presence in the Atlanta metropolitan area. Table 1 summarizes selected financial
information pertaining to Crescent as of June 30, 2010 and for the 6 preceding years.

Table 1: Financial Information for Crescent, 2004 to 2010

  Financial Data       Jun-10     Dec-09      Dec-08      Dec-07     Dec-06     Dec-05      Dec-04
      ($000s)
 Total Assets         970,235     991,838    1,035,337    916,462    776,823    699,875     506,461
 Total Loans          649,858     731,572     786,062     815,238    697,538    594,722     434,762
 Total Investments    205,349     191,631     183,941     43,662      32,219     57,011      38,920
 Total Deposits       932,809     933,054     937,831     788,622    663,511    585,847     414,766
 Time Deposits        357,735     296,563     295,680     247,006    169,695    144,433     104,058
 $100,000 & More
 Brokered Deposits     35,825      66,109     139,616     85,385      23,586     16,523      8,292
 Federal Home          25,000      28,000     31,000      36,000      38,000     49,000     39,000
 Loan Bank (FHLB)
 Borrowings
 Net Income (Loss)    (19,030)    (34,382)    (29,705)     7,326      7,644       4,447      1,120
Source: Uniform Bank Performance Reports (UBPR) and Reports of Condition and Income (Call Report)
data for Crescent Posted on the FDIC’s Public Web-site.




                                                  2
Causes of Failure and Material Loss
Crescent failed primarily because its Board and management did not effectively manage
the risks associated with the institution’s aggressive growth and heavy concentration in
ADC loans. Notably, Crescent did not maintain capital at levels that were commensurate
with the increasing risk in its loan portfolio, reducing the institution’s ability to absorb
losses due to unforeseen circumstances. Lax oversight of the lending function also
contributed to the asset quality problems that developed when economic conditions in
Crescent’s lending markets deteriorated. Specifically, the bank exhibited weak ADC loan
underwriting, credit administration, and related monitoring practices. Further, Crescent
relied on non-core funding sources, particularly out-of-market and brokered deposits, to
support its lending activities and maintain adequate liquidity. These funding sources
became restricted when Crescent’s credit risk profile deteriorated, straining the
institution’s liquidity position.

Crescent’s heavy concentration in ADC loans, coupled with weak risk management
practices, made the institution vulnerable to a sustained downturn in the Georgia real
estate market. During 2007, conditions in Crescent’s primary lending areas began to
decline. By year-end 2008, the quality of Crescent’s loan portfolio had deteriorated
significantly, with the majority of problems centered in ADC loans. Further deterioration
occurred in 2009. The associated provisions for loan losses depleted Crescent’s earnings,
eroded its capital, and strained its liquidity. The GDBF closed Crescent on July 23, 2010
because the institution was unable to raise sufficient capital to support its operations.

Aggressive Growth and ADC Loan Concentration

In 2003, Crescent embarked on an aggressive growth strategy centered in CRE and ADC
loans in response to a strong real estate market. However, Crescent’s Board and
management did not effectively manage the risks associated with the institution’s rapid
growth and ensuing concentrations in CRE and ADC loans. A description of the
institution’s strategy and risk management practices in this area follows.

Aggressive Growth

During the 4-year period ended December 31, 2007, Crescent grew its loan portfolio
almost 300 percent. Contributing to this growth was an increase in total CRE loans
(including ADC loans) from $196 million at year-end 2003 to $668 million at year-end
2007. During this same period, ADC loans grew from $76 million (or 27 percent of the
loan portfolio) to $418 million (or 51 percent of the loan portfolio). Crescent’s ADC
lending included speculative construction and land development projects in northern
Georgia.2 Figure 1 illustrates the general composition and growth of Crescent’s loan
portfolio in the years preceding the institution’s failure.



2
  Speculative construction lending involves the financing of projects for which a buyer has not yet been
identified.

                                                      3
Figure 1: Composition and Growth of Crescent’s Loan Portfolio, 2003 to 2009
                                                            Other Loans
                                                            CRE Loans
                                            $900            ADC Loans                             $815
        Gross Loans and Leases (Millions)                                                                  $786

                                            $800                                         $697                        $731
                                                                                                $147
                                            $700                                                          $174
                                                                            $595
                                                                                        $148                       $194
                                            $600
                                                                           $140                 $250
                                            $500                $435                                      $265
                                                                                        $201
                                                                                                                   $264
                                            $400               $120        $182
                                                     $277
                                            $300
                                                    $81        $165
                                                                                                $418
                                            $200                                        $348              $347
                                                    $120                   $273                                    $273
                                            $100               $150
                                                    $76
                                             $0
                                                   2003       2004        2005         2006     2007     2008     2009
                                                                                   Year Ended

Source: OIG Analysis of Call Report data for Crescent posted on the FDIC’s Public Web-site.

CRE and ADC Loan Concentrations

In December 2006, the FDIC, the Office of the Comptroller of the Currency, and the
Board of Governors of the Federal Reserve System issued guidance, entitled,
Concentrations in Commercial Real Estate Lending, Sound Risk Management Practices
(Joint Guidance). The purpose of the Joint Guidance was to reinforce existing regulations
and guidelines for real estate lending and safety and soundness. The Joint Guidance states
that the federal banking agencies have observed an increasing trend in the number of
institutions with concentrations in CRE loans and noted that rising CRE concentrations
could expose institutions to unanticipated earnings and capital volatility in the event of
adverse changes in the general CRE market. Although the Joint Guidance does not
establish specific CRE lending limits, it does define criteria that the agencies use to
identify institutions potentially exposed to significant CRE concentration risk. According
to the Joint Guidance, an institution that has experienced rapid growth in CRE lending,
has notable exposure to a specific type of CRE, or is approaching or exceeds the following
supervisory criteria may be identified for further supervisory analysis of the level and
nature of its CRE concentration risk:

    •                                Total CRE loans representing 300 percent or more of total capital where the
                                     outstanding balance of the institution’s CRE loan portfolio has increased by
                                     50 percent or more during the prior 36 months; or

    •                                Total loans for construction, land development, and other land (referred to in this
                                     report as ADC) representing 100 percent or more of total capital.


                                                                                   4
As of December 31, 2007, Crescent’s non-owner occupied CRE loans represented
617 percent of the institution’s total capital. Further, the bank’s ADC loan concentration
at year-end 2007 represented 464 percent of total capital. Both of these concentrations
significantly exceeded the levels defined in the Joint Guidance as possibly warranting
further supervisory analysis. Crescent’s ADC loan concentration also significantly
exceeded the bank’s peer group average, as reflected in Figure 2 below.

Figure 2: Crescent’s ADC Loan Concentration Compared to Peer Group

              1086.17%



              814.63%
 Percentage




              543.09%



              271.54%



                0.00%

                          Dec-04    Dec-05      Dec-06      Dec-07      Dec-08      Dec-09

               Crescent   270.15%   425.46%    475.39%     463.66%     490.36%     777.99%
               Peer       80.77%    103.80%    117.41%     123.57%     139.17%      97.83%
                                                      Period

Source: UBPRs for Crescent.
Note: The increase in ADC as a percentage of total capital during 2009 was largely attributable to a decrease
in capital rather than new ADC lending.

ADC lending generally involves a greater degree of risk than permanent financing for
finished residences or commercial buildings. Associated risks include adverse changes in
market conditions between the time an ADC loan is originated and the time construction is
completed, as well as the inherent difficulty of accurately estimating the cost of
construction and the value of completed properties in future periods. Due to these and
other risk factors, ADC loans generally require greater effort to effectively evaluate and
monitor than other types of loans.

Although Crescent had implemented certain controls for managing its CRE and ADC loan
concentrations, its concentration risk management practices were not adequate. Among
other things, the institution’s ADC loan concentration limits were high. Specifically,
Crescent’s loan policy allowed ADC concentrations of up to 500 percent of the bank’s
Tier 1 Capital on a funded basis (and 750 percent of Tier 1 Capital on a committed basis),
exposing the institution to potential adverse market conditions. In addition, prior to the
June 2008 examination, the loan policy did not contain limits for certain key CRE and
ADC subcategories, such as speculative and pre-sold development and construction loans.

                                                     5
Further, the institution did not stress test its CRE and ADC loan portfolios to assess the
impact that various economic scenarios might have on the institution’s asset quality,
capital, earnings, and liquidity as described in the Joint Guidance. The bank had also not
developed a formal contingency plan to mitigate the risks associated with its ADC loan
concentration in the event of adverse market conditions.3

ADC Loan Losses

At the time of the June 2008 examination, Crescent’s adversely classified assets were
$96.1 million (or 106 percent of Tier 1 Capital plus the Allowance for Loan and Lease
Losses (ALLL)), posing significant risk to the institution. Approximately $88 million of
the classifications consisted of loans, the majority of which were ADC loans. By the
July 2009 examination, adversely classified assets had increased to $266.2 million (or
378 percent of Tier 1 Capital plus the ALLL). The majority of these classifications
consisted of ADC loans. In its final Call Report for the quarter ended June 30, 2010,
Crescent reported that nearly 17 percent of its total loan portfolio was in non-accrual
status. Further, about 66 percent of the bank’s ADC loan portfolio was not performing at
that time. As reflected in Figure 3, the majority of loan charge-offs between
December 31, 2005 and June 30, 2010 pertained to ADC loans.

Figure 3: Crescent’s Net Charge-offs on Loans and Leases as of June 30, 2010
                                        (Dollars in Thousands)


                                  4,454        2,422
                       6,720




                  6,092
                                                                              45,447




     ADC Loans                        Other CRE Loans                  1-4 Family Residential
     Commercial & Industrial          All Other Loans

Source: Call Reports for Crescent.




3
 The Joint Guidance recommends that institutions develop appropriate strategies for managing CRE
concentration levels, including a contingency plan to reduce or mitigate concentrations in the event of
adverse market conditions. Such strategies could include, for example, loan participations, loan sales, and
securitizations, to mitigate concentration risk. Contingency plans facilitate a proactive (rather than reactive)
approach to dealing with adverse market conditions.

                                                       6
Capital Levels Relative to CRE and ADC Loan Growth

While risk in the loan portfolio increased due to Crescent’s aggressive ADC loan growth,
capital levels remained relatively constant or declined. This trend limited the bank’s
ability to absorb losses due to unforeseen circumstances and contributed to the losses
incurred by the DIF when the institution failed. Figure 4 illustrates the trend in Crescent’s
Tier 1 Capital relative to CRE and ADC loans.

Figure 4: Trend in Crescent’s Tier 1 Capital Relative to CRE and ADC Loan Growth

                           800                                                                              13
  Total Loans (Millions)




                           700                                                                              11




                                                                                                                 Tier 1 Capital Ratio
                           600




                                                                                                                    (Percentage)
                                                                                                            9
                           500
                           400                                                                              7
                           300
                                                                                                            5
                           200
                           100                                                                              3
                             0                                                                              1
                                      04




                                                    05




                                                                  06




                                                                              07




                                                                                         08




                                                                                                       09
                                    c-




                                                  c-




                                                                c-




                                                                            c-




                                                                                       c-




                                                                                                     c-
                                 De




                                               De




                                                             De




                                                                         De




                                                                                    De




                                                                                                  De
                                                                  Year Ended

                                           Total CRE Loans      Total ADC Loans    Tier 1 Capital Ratio

Source: UBPRs for Crescent.

The FDIC’s Risk Management Manual of Examination Policies (Examination Manual)
states that institutions should maintain capital commensurate with the level and nature of
risk to which the institutions are exposed. In addition, the Examination Manual indicates
that the amount of capital necessary for safety and soundness purposes may differ
significantly from the amount needed to maintain a Well Capitalized or Adequately
Capitalized position for PCA purposes. Between 2005 and 2008, Crescent’s capital ratios
were either Adequately Capitalized or only slightly above Well Capitalized. Notably,
Crescent’s Capital Policy approved by the Board in February 2006 allowed the bank to
maintain an Adequately Capitalized position. However, such a capital position was not
commensurate with the bank’s risk profile. Maintaining higher capital levels may have
restrained Crescent’s loan growth and/or limited, to some extent, the losses incurred by the
DIF.

Oversight of the Lending Function

Ineffective Board and management oversight of the lending function contributed to the
asset quality problems that developed when economic conditions in Crescent’s lending
markets deteriorated. Except for the May 2006 examination, examiners noted weak loan
underwriting, credit administration, and related monitoring practices during every
examination and visitation conducted between 2005 and the bank’s failure. These
weaknesses, which were most prevalent in the June 2008 examination report, are briefly

                                                                        7
described below. Also see Appendix 2 for a summary of risk management weaknesses
and recommendations in examination reports issued between 2005 and 2009.

Loan Underwriting

Weak underwriting practices included:

    •    Borrower Equity. The bank often required little borrower equity and guarantor
         support when originating and renewing ADC loans. Examiners noted that the bank
         had a large number of loans that exceeded the supervisory loan-to-value (LTV)
         limits defined in Appendix A, Interagency Guidelines for Real Estate Lending
         Policies, to Part 365 of the FDIC Rules and Regulations, Real Estate Lending
         Standards (Interagency Guidelines).4 In addition, examiners noted that the bank
         sometimes originated loans based on LTV ratios that were just under the LTV
         limits defined in the Interagency Guidelines. Such practices introduced additional
         risk because a relatively small decline in real estate values could result in increased
         LTV exceptions.

    •    Global Cash Flow Analyses. The institution did not perform adequate global
         cash flow analyses of borrowers or guarantors when loans were originated or
         renewed. For example, contingent liabilities and debt service requirements of
         borrowers were often not fully considered. In addition, the progress of the
         borrowers’ other real estate projects funded by other institutions was not
         considered. Such analyses can provide early indications of problems.

    •    Loan Agreements. The bank did not establish loan agreements for some
         construction and development loans. Such agreements are an important step in
         holding a borrower accountable for achieving basic performance guidelines and
         protecting the bank’s interest. For example, loan agreements can include
         provisions that require minimum debt service coverage ratios, liquidity ratios, and
         equity requirements for borrowers.

    •    Loan Renewals, Extensions, and Modifications. Crescent frequently renewed,
         extended, or modified loans without taking adequate steps to ensure that the
         borrower had the capacity to repay the loan or without identifying viable exit
         strategies.

    •    Loan Approvals. In some cases, loan terms approved by the Board differed from
         actual loan terms without any written explanation for the deviation.




4
 The Interagency Guidelines recognize that there may be circumstances in which it is appropriate to
originate or purchase loans with LTV ratios that exceed the LTV limits in the guidelines, if justified by other
credit factors. In such cases, the loans should be identified in the institution’s records and their aggregate
amount reported at least quarterly to the institution’s Board.

                                                       8
Credit Administration and Related Monitoring

Weak credit administration and related loan monitoring practices that were reported by
examiners included:

   •   Inspection and Draw Procedures. Collateral inspections for construction and
       development projects were sometimes not available for examiner review. In some
       cases, construction projects were overfunded based on the percentage of the project
       that had actually been completed, and loan disbursement files lacked invoices to
       support draw requests or lien waivers from subcontractors. Further, the bank’s
       loan policy did not contain guidelines for monitoring development and
       construction loan disbursements.

   •   Interest Reserves. The bank did not adequately track or monitor interest reserves
       on its ADC loans. Although at least half of the bank’s ADC loans had an interest
       reserve component at the time of the June 2007 examination, the bank’s loan
       policy did not include guidance regarding the use of interest reserves.

   •   Appraisal Reviews. The June 2008 examination report noted that the loan policy
       did not establish procedures for an effective appraisal review program.
       Management allowed loan officers to conduct appraisal reviews after loan funds
       had been disbursed. The lack of appropriate appraisal reviews resulted in apparent
       violations of section 323.4 of the FDIC Rules and Regulations for minimum
       appraisal standards as well as contraventions of the Statement of Policy on
       Interagency Appraisal and Evaluations Guidelines for an effective appraisal
       review program.

   •   Feasibility Studies. Loans for some construction projects lacked adequate
       feasibility studies and risk analyses.

   •   LTV Exception Reporting. Management reports on LTV loan exceptions
       submitted to the institution’s Board were often inaccurate because they did not
       include all exceptions, thus limiting the institution’s ability to effectively manage
       the risks associated with high LTV loans.

   •   Loan Files. Loan files often lacked sufficient or current financial information on
       borrowers, guarantors, and construction projects (e.g., financial statements,
       appraisals, and real estate tax returns).

Reliance on Non-core Funding Sources

In the years preceding its failure, Crescent relied on non-core funding sources, such as
out-of-market and brokered deposits and Federal Home Loan Bank (FHLB) borrowings,
to fund its loan growth and maintain adequate liquidity. When properly managed, non-
core funding sources offer a number of important benefits, such as ready access to funds
in national markets when core deposit growth in local markets lags planned asset growth.

                                              9
However, non-core funding sources also present potential risks, such as increased
volatility when interest rates change and statutory and other restrictions when the credit
risk profile of an institution deteriorates. In addition, institutions become subject to
limitations on the interest rates they can offer on deposits when the institutions fall below
Well Capitalized. Under distressed financial or economic conditions, institutions could be
required to sell assets at a loss in order to fund deposit withdrawals and other liquidity
needs.

During 2007 and the first quarter of 2008, Crescent significantly increased its use of out-
of-market and brokered deposits to fund loan growth. Specifically, out-of-market and
brokered deposits increased from $79 million (or almost 12 percent of total deposits) to
$201.1 million (or approximately 25 percent of total deposits). Management determined
that the costs of these deposits were less than the cost of deposits with similar maturities in
the bank’s local market area. As discussed more fully in The FDIC’s Supervision of
Crescent section of this report, the FDIC permitted the bank to increase its brokered
deposits during 2007 while the institution was operating under an FDIC-approved
brokered deposit waiver. During the last 9 months of 2008, Crescent determined that the
cost of out-of-market and brokered deposits had increased to levels equal to or exceeding
the cost of funds in the bank’s local market. At year-end 2008, Crescent’s out-of-market
and brokered deposits totaled $240.1 million. While Crescent’s out-of-market and
brokered deposits were increasing, its FHLB borrowings were decreasing. Specifically, as
of December 31, 2008, the bank’s FHLB borrowings totaled $31 million, down from
$36 million at year-end 2007 and $38 million at year-end 2006.

In August 2007, Crescent received a $10 million capital infusion following the closing of
a Trust Preferred Securities offering, resulting in the bank returning to a Well Capitalized
position. However, the June 2008 examination identified significant deterioration in
Crescent’s financial and operational condition. Based on the results of the examination,
the bank’s Board adopted an Action Plan to address key issues and concerns raised by
examiners. The plan included a goal to reduce brokered deposits from approximately
$149.2 million (or 16 percent of total deposits) as of September 30, 2008 to $75 million
(or about 9 percent of total deposits) by year-end 2009. By the close of 2008, Crescent
had fallen back to Adequately Capitalized and was again prohibited from accepting,
renewing, or rolling over brokered deposits without a waiver from the FDIC. Crescent’s
Adequately Capitalized position also resulted in limits on the interest rates that the bank
could offer on its time deposits, including out-of-market deposits. Crescent did not
request a brokered deposit waiver after it fell to Adequately Capitalized at year-end 2008.
In its March 31, 2009 Call Report, Crescent reported an Undercapitalized position, which,
by statute, prohibited the bank from accessing brokered deposits.

During 2008 and 2009, Crescent worked to replace its maturing brokered deposits with
other funding sources. By the close of 2009, brokered deposits stood at about
$66.1 million, or 7 percent of the bank’s $933 million in total deposits. However,
Crescent’s inability to access funding sources, such as FHLB borrowings and brokered
deposits, was straining its liquidity. In its Annual Report on Form 10-K (Annual Report)
filed with the Securities and Exchange Commission (SEC) for the fiscal year-ended

                                              10
December 31, 2009, Crescent’s parent holding company stated that the bank’s potential
lack of liquidity sources raised substantial doubt about its ability to continue to as a going
concern. Further, examiners determined during the July 2009 examination that the rates
Crescent was paying on certain of its time deposits failed to comply with Part 337 of the
FDIC Rules and Regulations. Under the FDIC Rules and Regulations, such deposits are
considered brokered deposits.


The FDIC’s Supervision of Crescent

The FDIC, in coordination with the GDBF, provided ongoing supervisory oversight of
Crescent through regular on-site examinations, a visitation, and various offsite monitoring
activities. Through its supervisory efforts, the FDIC identified risks in the bank’s
operations and brought these risks to the attention of the institution’s Board and
management through examination and visitation reports and correspondence. Such risks
included the bank’s significant concentration in ADC loans, weak loan underwriting and
credit administration practices, and reliance on non-core funding sources. The FDIC and
the GDBF also made numerous recommendations for improvement and imposed informal
and formal enforcement actions.

A general lesson learned with respect to weak risk management practices is that early
supervisory intervention is prudent, even when an institution is considered Well
Capitalized and has relatively few classified assets. In this regard, recognizing that
Crescent’s financial condition and markets were generally favorable during earlier
examinations, the FDIC could have placed greater emphasis on Crescent’s risk
management practices when determining supervisory responses to key risks identified at
the time. Examiners became sharply critical of Crescent’s risk management practices
during the June 2008 and July 2009 examinations. In addition, the FDIC issued a Cease
and Desist (C&D) Order in May 2009 to address the bank’s weak risk management
practices. However, by that time, the institution’s financial condition and lending markets
were rapidly deteriorating, making remedial efforts difficult. A more proactive
supervisory approach may have influenced the bank to curb its ADC lending, increase its
capital levels, and strengthen its risk management controls before the Georgia real estate
market deteriorated, potentially mitigating, to some extent, the financial problems
experienced by the bank.

The FDIC has taken a number of steps to enhance its supervision program based on the
lessons learned from financial institution failures during the financial crisis. With respect
to the issues discussed in this report, the FDIC has, among other things, recently provided
training to its examination workforce wherein the importance of assessing an institution's
risk management practices on a forward-looking basis was emphasized. The FDIC has
also issued supervisory guidance addressing risks associated with ADC lending and funds
management practices.




                                              11
Supervisory History

Between 2005 and 2010, the FDIC and the GDBF conducted five onsite examinations and
one visitation of Crescent. Such on-site examination activity was consistent with relevant
regulatory requirements.5 The scope of our work focused on the FDIC’s supervision of
the bank between 2005 and the bank’s closure in July 2010. Table 2 summarizes key
supervisory information pertaining to the examinations and visitation.

Table 2: Onsite Examinations and Visitation of Crescent
                                                            Supervisory
    Examination       Examination         Regulator           Ratings          Informal or Formal Action
     Start Date       or Visitation                           (UFIRS)                   Taken*
      3/15/10           Visitation           FDIC             555555/5               C&D Still in Effect
      7/27/09          Examination       FDIC/GBDF            555555/5               C&D Still in Effect
      6/17/08          Examination           FDIC             344443/4          C&D Effective May 11, 2009
       6/4/07          Examination           GBDF             222232/2                      None
      5/15/06          Examination           FDIC             222222/2                      None
      4/18/05          Examination           GBDF             222322/2          BBR from Prior Examination
                                                                                       Still in Effect
Source: OIG analysis of examination reports and information in the FDIC’s Virtual Supervisory Information on
the Net system for Crescent.
* Informal corrective actions often take the form of Bank Board Resolutions (BBR) or Memoranda of
Understanding. Formal corrective actions often take the form of C&Ds, Supervisory Directives, and under
severe circumstances can include insurance termination proceedings.

The FDIC’s offsite monitoring procedures generally consisted of contacting the bank’s
management from time to time to discuss current and emerging business issues and using
automated tools6 to help identify potential supervisory concerns. The FDIC’s offsite
monitoring procedures did not identify serious concerns at Crescent until July 2, 2008, at
which time an offsite review of the bank’s March 31, 2008 Call Report noted problems.
Among other things, the review found that the bank’s return on average assets was
-0.69 percent, non-performing assets represented 25 percent of Tier 1 Capital plus the
ALLL, and ADC loans represented 503 percent of total capital. The offsite review also
found that the bank’s risk profile was trending higher. Since an onsite examination of
Crescent had begun the prior month, no additional offsite action was taken at that time.
Based on the results of the June 2008 examination, the FDIC, working in coordination



5
  Section 337.12 of the FDIC Rules and Regulations, which implements section 10(d) of the FDI Act,
requires annual full-scope, onsite examinations of every state nonmember bank at least once every
12-month period and allows for 18-month intervals for certain small institutions (i.e., total assets of less than
$500 million) if certain conditions are satisfied.
6
  The FDIC uses various offsite monitoring tools to help assess the financial condition of institutions. Two
such tools are the Statistical CAMELS Offsite Rating system and the Growth Monitoring System. Both
tools use statistical techniques and Call Report data to identify potential risks, such as institutions likely to
receive a supervisory downgrade at the next examination or institutions experiencing rapid growth and/or a
funding structure highly dependent on non-core funding sources.

                                                       12
with the GDBF, issued a C&D in May 2009. Among other things, the C&D required
Crescent to:

   •   ensure an increased level of participation by its Board in the affairs of the bank,

   •   maintain a Tier 1 Leverage Capital ratio of 8 percent or more and a Total Risk-
       Based Capital ratio of 10 percent or more,

   •   reduce its credit concentrations and improve its monitoring procedures,

   •   reduce its reliance on non-core funding sources and develop a liquidity
       contingency funding plan that included restrictions on the use of brokered and
       internet deposits, and

   •   discontinue accepting, renewing, or rolling over brokered deposits without a
       waiver from the FDIC.

Supervisory Response to Crescent’s Weak Risk Management Practices

In the years preceding Crescent’s failure, the FDIC and GDBF identified risks in the
bank’s operations and brought these risks to the attention of the institution’s Board and
management through examination and visitation reports, correspondence, and
recommendations. In addition, the FDIC, in coordination with the GDBF, implemented a
BBR in 2004 and a C&D in 2009. A brief summary follows.

2005 Supervisory Activities

Examiners determined during the April 2005 examination that Crescent’s overall financial
and operational condition was satisfactory. At that time, conditions in the bank’s lending
markets were favorable and the institution’s adversely classified assets were at a
manageable level. However, the examination report identified a number of weak risk
management practices and included recommendations for improvement. Notably,
examiners recommended that the bank better monitor its loan concentrations and amend
its loan policy to establish risk tolerance limits for its ADC loan concentration. At the
time of the examination, the bank was experiencing significant growth, and its ADC loan
concentration represented 237 percent of Tier 1 Capital.

The examination report also noted that Crescent’s loan underwriting and credit
administration practices needed improvement. For example, examiners noted that more
than half of the loan files reviewed lacked relevant documentation, the terms of some
loans differed from what had been formally approved by the bank, inspection and draw
procedures for construction loans were not adequate, and apparent violations of laws and
regulations existed with respect to the lending function. A number of the underwriting
and credit administration weaknesses had already been included in an April 22, 2004 BBR
adopted by Crescent based on the results of the prior examination conducted in
February 2004.


                                             13
Examiners determined that Crescent’s capital position was satisfactory. Management
advised the examiners during the April 2005 examination that the bank’s goal was to
maintain a Well Capitalized position, with a Tier 1 Leverage Capital ratio above 8 percent.
Based on the bank’s planned asset growth, new capital would be raised as needed to
maintain the bank’s Well Capitalized position. While the bank continued to be profitable,
examiners determined that earnings were less than satisfactory, limiting to some extent,
the ability of earnings to augment capital.

2006 Supervisory Activities

During the May 2006 examination, examiners determined that Crescent’s overall financial
and operational condition continued to be satisfactory. Conditions in Crescent’s lending
markets continued to be favorable and the bank’s adversely classified assets decreased
slightly from the prior examination. However, the examination report noted that the bank
was continuing its aggressive growth strategy and that substantial additional growth was
projected into 2007. According to information contained in the report, we determined that
the bank’s ADC loan concentration had increased to over 400 percent of Tier 1 Capital
and the bank had a substantial volume of real estate loans exceeding the LTV limits
defined in the Interagency Guidelines. The report noted that the bank’s rapid growth,
ADC loan concentration, and high number of LTV loan exceptions were collectively
increasing the bank’s risk profile. However, examiners concluded that the bank’s ADC
loan concentration was satisfactorily monitored and managed and that the bank had
addressed all of the loan underwriting and credit administration weaknesses identified in
the prior examination report.

Although Crescent’s Tier 1 Leverage Capital ratio remained above the bank’s 7 percent
target benchmark, the bank’s Total Risk-Based Capital ratio was exactly 10 percent,
which is the minimum level of such capital required to be designated as Well Capitalized
for PCA purposes. In addition, examiners determined that the bank’s earnings had
improved following the prior examination, due in large part to the high yields associated
with the bank’s emphasis on ADC loans. In its September 30, 2006 Call Report, Crescent
reported that its Total Risk-Based Capital ratio had declined to 9.99 percent. As a result,
the bank fell to Adequately Capitalized and was restricted from accepting, renewing, or
rolling over brokered deposits without a waiver from the FDIC. The FDIC received an
application for a brokered deposit waiver from Crescent on November 21, 2006. The
application requested that the prohibition on brokered deposits be waived for up to 1 year
to support the bank’s continued loan growth. As of September 30, 2006, Crescent’s
brokered deposits totaled $17.9 million (or 2.8 percent of total deposits). According to
information provided with the application, Crescent planned to increase its brokered
deposits to $80 million (or 12 percent of total deposits) by September 30, 2007.

Crescent’s management advised the FDIC that brokered deposits represented a cost-
effective alternative to local funding sources. In addition, the bank’s out-of-market
certificates of deposit, which included brokered deposits, were limited by bank policy to
no more that 30 percent of total deposits. Further, management projected that future
earnings would support the bank’s planned asset growth and result in stable capital ratios.
Moreover, management had successfully raised capital in the past to support loan growth

                                             14
and anticipated no problems doing so again, if needed. Based on these and other factors,
the FDIC determined that approving a brokered deposit waiver would not represent an
unsafe or unsound practice. Accordingly, in a letter dated December 15, 2006, the FDIC
approved a waiver of up to $80 million in brokered deposits through September 30, 2007.

2007 Supervisory Activities

Examiners determined during the June 2007 examination that Crescent’s overall financial
and operational condition remained satisfactory. In addition, the bank’s adversely
classified assets had only increased slightly following the prior examination and the bank
had lowered its projected annual asset growth rate from about 40 percent during the prior
examination to 12 percent. The examination report noted that the bank’s ADC loan
concentration had increased to 414 percent of Tier 1 Capital and that four credit
concentrations with large borrowing relationships existed. The four concentrations ranged
from 25 to 48 percent of Tier 1 Capital. Examiners recommended that the bank strengthen
its industry and individual concentration reporting practices.

Examiners determined that the bank’s loan underwriting and credit administration
practices were generally adequate, although weaknesses in some areas were noted. For
example, the report stated that the bank needed to better monitor and track its use of
interest reserves for ADC loans, modify the loan policy to ensure appropriate Board or
Loan Committee approvals of large borrowing relationships, and create a report to
aggregate loan relationships.7 Examiners also identified apparent violations with respect
to appraisals, LTV exceptions, and loan approvals.

Although examiners assigned a Capital component rating of “2” during the June 2007
examination, the examination report noted that Crescent was Adequately Capitalized and
continued to operate under a brokered deposit waiver. Further, the bank’s liquidity
position had deteriorated and was less than satisfactory. Specifically, the bank had a
relatively low liquidity level and outside sources of liquidity were limited. According to
the examination report, the bank’s capital level, earnings, and credit concentrations created
a heightened risk profile that necessitated a comprehensive report for calculating sources
and uses of funds to help measure, monitor, and control liquidity risk. Examiners also
recommended that the bank strengthen its Liquidity Policy to include a formal
contingency plan outlining the bank’s primary and secondary sources of liquidity.

Between December 31, 2006 and June 30, 2007 (much of the period during which the
bank relied on the waiver to access brokered deposits), the bank took advantage of the
brokered deposit waiver and increased brokered deposits from $23.6 million to
$67.6 million. According to Crescent’s Quarterly Report on Form 10-Q filed with the
SEC for the quarter ended June 30, 2007, the bank mainly used out-of-market and
brokered deposits to fund loan growth during the first half of 2007. In August 2007,
Crescent raised new capital, resulting in the bank reporting a Well Capitalized position in


7
  Such a report would be used to monitor and report the risks associated with multiple loans dependent upon
the strength of one or a few borrowers.

                                                    15
its September 30, 2007 Call Report. As a result, the bank no longer needed a waiver to
solicit, renew, or roll over brokered deposits.

2008 Supervisory Activities

During the June 2008 examination, examiners determined that Crescent’s overall
condition was unsatisfactory and downgraded the bank’s composite rating to a “4.”
Conditions in the bank’s lending markets were deteriorating and the bank’s adversely
classified assets totaled $96 million, or 106 percent of Tier 1 Capital plus the ALLL,
posing significant risk to the institution. The majority of asset quality problems were
centered in ADC loans. The examination report noted that the bank’s ADC loan
concentration had increased to 522 percent of Tier 1 Capital, exceeding the bank’s loan
policy limit of 500 percent of Tier 1 Capital. Examiners recommended that the bank
develop plans to reduce its ADC loan concentration to a level within the bank’s policy
limitations and establish sub-limits on speculative and pre-sold development and
construction loans. Examiners also recommended that the bank enhance its procedures for
monitoring the ADC concentration.

The examination report identified numerous loan underwriting, credit administration, and
related monitoring weaknesses and included recommendations for improvement. Among
other things, the report stated that the bank needed to improve collateral inspections; loan
disbursements; appraisal reviews; file documentation; and compliance with laws,
regulations, and statements of policy.8 Of particular note, the report stated that the bank
had not established adequate controls over interest reserves used on ADC loans. The prior
examination report had identified a similar deficiency. Although the bank continued to be
Well Capitalized for PCA purposes, examiners determined that the bank’s capital ratios
were marginally adequate for its risk profile and recommended that the bank develop a
capital plan.

The examination report further stated that the bank relied on non-core funding sources to
support its growth and that its liquidity levels were deficient. In addition, the liquidity
contingency plan developed in response to a prior examiner recommendation was found to
be inadequate for the bank’s risk profile. Examiners made several recommendations to
improve the bank’s liquidity risk profile, including reducing the bank’s dependence on
brokered deposits and developing a comprehensive contingency funding plan that
addressed, among other things, statutory restrictions on brokered deposits.

The FDIC pursued a C&D to address the findings of the June 2008 examination.
However, the C&D was not implemented until May 2009, approximately 8 months after
the completion of the examination on September 30, 2008. In the interim, Crescent’s
Board passed a resolution on October 16, 2008 to adopt an Action Plan that addressed the
findings of the June 2008 examination. Among other things, the plan called for reducing
the ADC loan concentration; recognizing and/or reserving for troubled assets; and
reducing non-core funds, including brokered deposits. Similar to an informal enforcement

8
 See Oversight of the Lending Function in the Causes of Failure and Material Loss section of this report for
more information on Crescent’s weak underwriting, credit administration, and related monitoring practices.

                                                    16
action, bank management provided the FDIC and the GDBF with periodic status reports
describing its efforts to address the items contained in the Action Plan.

2009 and 2010 Supervisory Activities

During the July 2009 examination, examiners identified further significant deterioration in
Crescent’s financial and operational condition and downgraded the bank’s composite
rating to a “5.” At the time of the examination, adversely classified assets totaled
377 percent of Tier 1 Capital and the ALLL. Examiners attributed much of the
deterioration to excessive ADC loan exposure. Although the bank had not originated
many new loans following the prior examination, the administration of existing loans was
weak. For example, examiners noted instances in which loans were renewed without
adequate financial analysis. Apparent violations of regulations and contraventions of
statements of policy also existed. Further, examiners determined that Crescent’s capital
was critically deficient in relation to the bank’s risk profile and that secondary sources of
funding were unavailable, elevating the bank’s liquidity risk profile. In addition,
examiners found that compliance with critical provisions of the May 2009 C&D, including
provisions pertaining to capital adequacy and brokered deposits, had not been achieved.
Absent the sale of the bank or a substantial capital infusion, examiners determined that the
probability of the bank’s failure was significant.

The FDIC conducted a limited scope visitation in March 2010 to assess the bank’s
financial condition and compliance with the C&D. Examiners found further deterioration
in the bank’s condition. Among other things, classified assets had increased to
550 percent of Tier 1 Capital, earnings were critically deficient, and a significant provision
was needed to replenish the ALLL. Further, the bank was Critically Undercapitalized for
PCA purposes. Although management had put forth efforts to comply with the C&D, the
bank remained in non-compliance with several of the order’s provisions. The GDBF
closed the institution on July 23, 2010 because it did not have enough capital to continue
safe and sound operations.

Supervisory Lessons Learned

A general lesson learned with respect to weak risk management practices is that early
supervisory intervention is prudent, even when an institution is considered Well
Capitalized and has relatively few classified assets. As described below, the FDIC could
have placed greater emphasis on Crescent’s risk management practices when determining
supervisory responses to key risks identified at earlier examinations.

Examiners recommended during the April 2005 examination that Crescent establish risk
tolerance limits for its loan concentrations. The bank established such limits for ADC
loans, but the limits were high.9 At the time the May 2006 examination was conducted,
Crescent’s financial condition was satisfactory, its lending markets were favorable, and
the December 2006 Joint Guidance had not yet been issued. Nevertheless, the institution

9
 Crescent’s loan policy allowed ADC loan concentrations of up to 500 percent of Tier 1 Capital on a funded
basis and up to 750 percent of Tier 1 Capital on an unfunded basis.

                                                   17
was experiencing rapid growth centered in ADC loans and its ADC loan concentration
was more than 400 percent of Tier 1 Capital. Further, many of Crescent’s loans had high
LTV ratios and the bank’s Total Risk-Based Capital ratio was exactly 10 percent, the
minimum threshold for maintaining a Well Capitalized status. Therefore, with the benefit
of hindsight, examiners could have recommended that Crescent reduce its ADC loan
exposure and/or hold higher levels of capital commensurate with the bank’s risk profile.

A more critical assessment of Crescent’s capital adequacy during the June 2007
examination conducted by the GDBF may also have been warranted. Specifically,
examiners could have lowered the Capital component rating below a “2” to reflect the
bank’s increased risk profile and less than Well Capitalized status. At that time, the Joint
Guidance had been issued, providing examiners additional support for taking such action.
Further, additional follow-up to ensure that the bank promptly and adequately addressed
the loan underwriting and credit administration weaknesses identified during the June
2007 examination may have been beneficial. During the June 2008 examination,
examiners noted weaknesses that had been identified in prior examinations pertaining to
interest reserves, LTV exception reporting, appraisal reviews, and contingency funding
planning.

Finally, a different supervisory approach to Crescent’s reliance on non-core funding
sources, particularly brokered deposits, to support lending activities may have been
warranted. Specifically, the FDIC approved a brokered deposit waiver in December 2006
that permitted the bank to increase its brokered deposits for the purpose of funding loan
growth. As noted earlier, the bank’s financial condition was satisfactory and its lending
markets were favorable at that time. In retrospect, however, the waiver allowed the bank
to assume additional risk. The Examination Manual notes that rapid asset growth funded
by potentially volatile liabilities is an early warning indicator of risk. Disapproving the
waiver may have influenced the bank to reduce its ADC loan exposure and/or raise
additional capital.

Examiners became sharply critical of Crescent’s risk management practices during the
June 2008 and July 2009 examinations. In addition, the FDIC issued a C&D in May 2009
to address the bank’s weak risk management practices. However, by that time, the
institution’s lending markets were rapidly deteriorating, making remedial efforts difficult.
A more proactive supervisory approach as described above may have influenced the bank
to curb its ADC lending and strengthen its risk management controls before the Georgia
real estate market deteriorated, potentially mitigating, to some extent, the financial
problems experienced by the bank.

The FDIC has taken a number of steps to enhance its supervision program based on the
lessons learned from financial institution failures during the financial crisis. With respect
to the issues discussed in this report, the FDIC has, among other things, recently provided
training to its examination workforce wherein the importance of assessing an institution’s
risk management practices on a forward-looking basis was emphasized. The FDIC has
also issued supervisory guidance addressing risks associated with ADC lending and funds
management practices. For example, the FDIC issued Financial Institution Letter (FIL)-

                                             18
22-2008, Managing CRE Concentrations in a Challenging Environment, which reiterates
broad supervisory expectations for managing risks associated with CRE and ADC loan
concentrations. With respect to funds management practices, the FDIC had issued FIL-
84-2008, entitled Liquidity Risk Management, which highlights the importance of
contingency funding plans in addressing relevant stress events and requirements
governing the acceptance, renewal, or roll-over of brokered deposits.

Implementation of PCA

Section 38, Prompt Corrective Action, of the FDI Act establishes a framework of
mandatory and discretionary supervisory actions pertaining to all institutions. The section
requires regulators to take progressively more severe actions, known as “prompt
corrective actions,” as an institution’s capital level deteriorates. The purpose of section 38
is to resolve problems of insured depository institutions at the least possible cost to the
DIF. Part 325, Capital Maintenance, of the FDIC Rules and Regulations defines the
capital measures used in determining the supervisory actions that will be taken pursuant to
section 38 for FDIC-supervised institutions. Part 325 also establishes procedures for the
submission and review of capital restoration plans and for the issuance of directives and
orders pursuant to section 38. The FDIC is required to closely monitor the institution’s
compliance with its capital restoration plan, mandatory restrictions defined under section
38(e), and discretionary safeguards imposed by the FDIC (if any) to determine if the
purposes of PCA are being achieved.

Based on the supervisory actions taken with respect to Crescent, the FDIC properly
implemented applicable PCA provisions of section 38. Notably, the FDIC formally
notified the bank when its capital category changed, reviewed and evaluated the bank’s
capital restoration plans, reviewed and monitored the institution’s Call Report
information, and conducted discussions with management regarding its efforts to raise
needed capital. Table 3 illustrates Crescent’s capital levels relative to the PCA thresholds
for Well Capitalized institutions as reported by the institution in its Call Reports. A
chronological description of the changes in the bank’s capital categories and the FDIC’s
implementation of PCA follow the table.

Table 3: Crescent’s Capital Levels, 2005 to 2010
 Period         Tier 1 Leverage   Tier 1 Risk-     Total Risk-     PCA Capital Category
 Ended          Capital           Based Capital    Based Capital
 PCA            5% or more        6% or more       10% or more     Well Capitalized
 Threshold
 Dec-05         8.36%             8.99%            10.04%          Well Capitalized
 Dec-06         8.31%             8.82%            9.91%           Adequately Capitalized
 Dec-07         8.82%             9.27%            10.40%          Well Capitalized
 Dec-08         5.72%             7.04%            8.31%           Adequately Capitalized
 Dec-09         2.45%             3.16%            4.43%           Significantly
                                                                   Undercapitalized
 June-10        0.60%             0.79%            1.58%           Critically Undercapitalized
Source: UBPRs for Crescent.




                                              19
Crescent was considered Well Capitalized for PCA purposes until the institution filed its
September 30, 2006 Call Report reflecting an Adequately Capitalized position. Crescent’s
December 31, 2006 Call Report indicated that the bank remained Adequately Capitalized.
In a letter dated February 8, 2007, the FDIC notified Crescent’s Board that the bank was
Adequately Capitalized.10 The letter included a reminder that Adequately Capitalized
institutions are restricted from soliciting, accepting, or rolling over brokered deposits
without a waiver from the FDIC. As previously discussed, Crescent was operating under
a brokered deposit waiver that had been approved in December 2006 and, in August 2007,
received a capital infusion of $10 million. As a result, the bank reported a Well
Capitalized position in its September 30, 2007 Call Report.

In a letter dated February 26, 2009, the FDIC notified Crescent’s Board that, based on its
December 31, 2008 Call Report, the bank had fallen back to Adequately Capitalized. The
letter included a reminder regarding the regulatory restrictions imposed on Adequately
Capitalized institutions. In a letter dated May 27, 2009, the FDIC notified Crescent’s
Board that, based on its March 31, 2009 Call Report, the bank had fallen to
Undercapitalized. The letter included a reminder regarding the restrictions imposed on
Undercapitalized institutions and requested that the bank submit a capital restoration plan
within 45 days of receipt of the letter. Crescent submitted a capital restoration plan on
July 14, 2009. After reviewing the plan, the FDIC advised Crescent’s Board in an
August 19, 2009 letter that the plan was unacceptable because it did not provide sufficient
detail regarding the bank’s capital raising efforts. Crescent submitted a revised capital
restoration plan on September 9, 2009. The FDIC determined that the bank had
substantially addressed the concerns pertaining to the prior plan and approved the revised
plan on September 29, 2009.

In a letter dated November 17, 2009, the FDIC notified Crescent’s Board that, based on its
September 30, 2009 Call Report, the bank had fallen to Significantly Undercapitalized.
The letter included a reminder regarding the restrictions imposed on Significantly
Undercapitalized institutions. The letter also noted that a planned private equity
investment of $25 million described in the bank’s approved capital restoration plan had
not yet occurred. The FDIC inquired about the status of the investment and requested that
the bank advise the FDIC of any changes in the approved capital restoration plan.
Because the institution did not formally respond to this request, the FDIC reiterated the
need for an updated status on the planned equity investment and the plan itself in a letter
to Crescent’s Board dated December 3, 2009. Crescent’s President and CEO advised the
FDIC in a January 28, 2010 letter that the private equity investment had not occurred, and
that the bank was working to revise its capital restoration plan to focus on a more viable
short-term capital solution.

In the months that followed, the FDIC monitored the bank’s capital levels and ongoing
efforts to raise new capital through the status reports required by the C&D, the March

10
  FDIC policy requires that institutions be notified in writing when they fall to Undercapitalized,
Significantly Undercapitalized, or Critically Undercapitalized. The policy does not require notification for
institutions that fall to Adequately Capitalized. The Atlanta Regional Office notified Crescent of its
Adequately Capitalized capital category as a courtesy.

                                                     20
2010 visitation, and meetings and discussions with bank management. On May 5, 2010,
the FDIC notified Crescent that, based on the institution’s March 31, 2010 Call Report, the
institution had fallen to Critically Undercapitalized. The notice included reminders
regarding the requirements imposed on Critically Undercapitalized institutions. Although
Crescent explored a number of strategic alternatives for raising capital, such as working
with private equity firms to obtain investments and applying for funds under the
Department of the Treasury’s Capital Purchase Program, these efforts were ultimately not
successful. The GDBF closed the institution on July 23, 2010 because it did not have
enough capital to continue safe and sound operations.


Corporation Comments
We issued a draft of this report on January 7, 2011. The Division of Supervision and
Consumer Protection (DSC) subsequently provided us with additional information for our
consideration, and we revised our report to reflect this information, as appropriate. On
January 28, 2011, the Director, DSC, provided a written response to the draft report. In
the response, DSC reiterated the causes of Crescent’s failure and the supervisory activities
described in our report. The response also noted that the FDIC issued a FIL in 2008,
entitled Managing Commercial Real Estate Concentrations in a Challenging
Environment, that re-emphasized the importance of robust credit risk-management
practices and set forth broad supervisory expectations. In addition, the response
referenced a 2007 FIL, entitled The Use of Volatile or Special Funding Sources by
Financial Institutions that are in a Weakened Condition. Among other things, this FIL
states that FDIC-supervised institutions that engage in aggressive growth strategies or rely
excessively on a volatile funding mix are subject to heightened off-site monitoring and
on-site examinations that are more extensive than those applicable to other institutions.




                                             21
                                                                              Appendix 1

                    Objectives, Scope, and Methodology

Objectives

We performed this audit in accordance with section 38(k) of the FDI Act, as amended by
the Financial Reform Act, which provides, in general, that if the Deposit Insurance Fund
incurs a material loss with respect to an insured depository institution, the Inspector
General of the appropriate federal banking agency shall prepare a report to that agency
reviewing the agency’s supervision of the institution. The Financial Reform Act amends
section 38(k) by increasing the MLR threshold from $25 million to $200 million for
losses that occur for the period January 1, 2010 through December 31, 2011. The
FDI Act requires that the report be completed within 6 months after it becomes apparent
that a material loss has been incurred.

Our audit objectives were to (1) determine the causes of Crescent’s failure and the
resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of Crescent,
including the FDIC’s implementation of the PCA provisions of section 38 of the FDI Act.

We conducted this performance audit from September 2010 to January 2011 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.


Scope and Methodology

The scope of this audit included an analysis of Crescent’s operations from April 18, 2005
until its failure on July 23, 2010. Our review also entailed an evaluation of the regulatory
supervision of the institution over the same period.

To achieve the objectives, we performed the following audit procedures:

   •   Analyzed key documentation, including:

           o Examination and visitation reports issued by the FDIC and the GDBF
             between 2005 and 2010.

           o Institution data in Call Reports, UBPRs, and other reports.

           o FDIC and GDBF correspondence.

           o Other relevant documents prepared by the FDIC relating to the institution.




                                             22
                                                                              Appendix 1

                   Objectives, Scope, and Methodology

           o Crescent’s Financial Filings with the SEC, including Annual Reports on
             Form 10-K and Quarterly Reports on Form 10-Q.

           o Pertinent FDIC regulations, policies, procedures, and guidance.

   •   Interviewed DSC examination staff in the Washington D.C. Office, the Atlanta
       Regional Office, and the Atlanta Field Office.

   •   Interviewed GDBF examination staff to obtain their perspectives on the failure
       and to discuss their role in the supervision of the institution.


Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC systems, reports, and
interviews of examiners to understand Crescent’s management controls pertaining to the
causes of failure and material loss as discussed in the body of this report.

We obtained data from various FDIC systems but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including examination reports, correspondence files, and
testimonial evidence to corroborate data obtained from systems that was used to support
our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this material loss review, we did not assess the strengths
and weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment was not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with the provisions of PCA. We performed limited tests
to determine compliance with certain aspects of the FDI Act and the FDIC Rules and
Regulations. The results of our tests are discussed, where appropriate, in the report.
Additionally, we assessed the risk of fraud and abuse related to our objectives in the
course of evaluating audit evidence.




                                            23
                                                                             Appendix 1

                   Objectives, Scope, and Methodology

Related Coverage of Financial Institution Failures

On May 1, 2009, the OIG issued an internal memorandum that outlined major causes,
trends, and common characteristics of FDIC-supervised financial institution failures that
had resulted in a material loss to the DIF. The memorandum indicated that the OIG
planned to provide more in-depth coverage of those issues and make related
recommendations, when appropriate. Since May 1, 2009, the OIG has issued additional
material loss review reports related to failures of FDIC-supervised institutions and these
reports can be found at www.fdicig.gov. In addition, the OIG issued an audit report
entitled, Follow-up Audit of FDIC Supervision Program Enhancements (Report No.
MLR-11-010), in December 2010. The objectives of the audit were to (1) determine the
actions that the FDIC has taken to enhance its supervision program since May 2009,
including those specifically in response to the May 2009 memorandum, and (2) identify
trends and issues that have emerged from subsequent MLRs.

Further, with respect to more in-depth coverage of specific issues, in May 2010, the OIG
initiated an evaluation of the role and federal regulators’ use of the Prompt Regulatory
Action provisions of the FDI Act (section 38, PCA and section 39, Standards for Safety
and Soundness) in the banking crisis.




                                            24
                                                                                              Appendix 2

 Selected Risk Management Weaknesses and Recommendations
                    by Examination Report

Report of Examination Start Dates                 4/18/2005     5/15/2006   6/4/2007   6/17/2008   7/27/2009
     Recommendation/Weakness is
             indicated with a
Loan Underwriting
Track and Monitor Interest Reserves
Establish Effective Appraisal Review
Program/Obtain Updated Appraisals
Improve LTV and Exceptions Reporting
Credit Administration
Set Limits or Do Not Exceed Policy Limits on
ADC Concentrations
Monitor/Track/Report ADC Concentration
Levels and Projects
Obtain Global Cash Flow and/or Financial
Analysis/Repayment Capacity/Borrower
Equity
Update Credit Memoranda
Maintain Loan Relationship Report
Perform Feasibility Studies and Stress Test
on Large Credits for Viability
Perform Due Diligence on Purchased
Participation Loans
Amend or Adhere to Loan Policy
Obtain Prior Loan Approvals for Extensions,
Renewals, and Deviations from Approved
Terms
Conduct Collateral Inspections
Expand Loan Review Scope
Revise ALLL Methodology
Violations and Contraventions
Contravention to Statement of Policy, Part
365, Real Estate Lending Standards
Part 323, Statement of Policy, Appraisal
Joint Guidance on Concentrations in
CRE Lending
Section 80-1-5.04(1), Participations
State Section 7-1-285(a)(1), Prior Loan
Approval
State Section 7-1-285(b), Legal Lending
Limits
State Section 7-1-286, Real Estate Loan
Limits
Part 337.6, Brokered Deposits

Source: OIG analysis of examination reports issued between 2005 and 2009.




                                                         25
                                                                                    Appendix 3

                                 Glossary of Terms

Term                  Definition
Acquisition,     ADC loans are a component of Commercial Real Estate that provide
Development, and funding for acquiring and developing land for future construction, and
Construction     that provide interim financing for residential or commercial structures.
(ADC) Loans
Adversely             Assets subject to criticism and/or comment in an examination report.
Classified Assets     Adversely classified assets are allocated on the basis of risk (lowest to
                      highest) into three categories: Substandard, Doubtful, and Loss.
Allowance for         The ALLL is an estimate of uncollectible amounts that is used to reduce
Loan and Lease        the book value of loans and leases to the amount that is expected to be
Losses (ALLL)         collected. It is established in recognition that some loans in the
                      institution’s overall loan and lease portfolio will not be repaid. Boards
                      of directors are responsible for ensuring that their institutions have
                      controls in place to consistently determine the allowance in accordance
                      with the institutions’ stated policies and procedures, generally accepted
                      accounting principles, and supervisory guidance.
Bank Board            A Bank Board Resolution is an informal commitment adopted by a
Resolution (BBR)      financial institution’s Board of Directors (often at the request of the
                      FDIC) directing the institution’s personnel to take corrective action
                      regarding specific noted deficiencies. A BBR may also be used as a tool
                      to strengthen and monitor the institution’s progress with regard to a
                      particular component rating or activity.
Call Report           Reports of Condition and Income, often referred to as Call Reports,
                      include basic financial data for insured commercial banks in the form of
                      a balance sheet, an income statement, and supporting schedules.
                      According to the Federal Financial Institutions Examination Council’s
                      (FFIEC) instructions for preparing Call Reports, national banks, state
                      member banks, and insured nonmember banks are required to submit a
                      Call Report to the FFIEC’s Central Data Repository (an Internet-based
                      system used for data collection) as of the close of business on the last
                      day of each calendar quarter.

Capital Purchase      On October 3, 2008, the President signed the Emergency Economic
Program               Stabilization Act of 2008 into law. Among other things, the Act
                      authorized the Secretary of the Department of the Treasury to establish
                      the Troubled Asset Relief Program (TARP), which is administered by
                      the Treasury. Under TARP, the Treasury implemented the Capital
                      Purchase Program through which the Treasury purchased senior
                      preferred stock (and, if appropriate, warrants of common stock) from
                      viable institutions of all sizes. Qualifying financial institutions were
                      permitted to apply for funds under the Capital Purchase Program after
                      consulting with their primary federal regulator.

Cease and Desist      A C&D is a formal enforcement action issued by a financial institution
Order (C&D)           regulator to a bank or affiliated party to stop an unsafe or unsound
                      practice or a violation of laws and regulations. A C&D may be


                                               26
                                                                                  Appendix 3

                               Glossary of Terms
                    terminated when the bank’s condition has significantly improved and the
                    action is no longer needed or the bank has materially complied with its
                    terms.
Commercial Real     CRE loans are land development and construction loans (including 1-to-
Estate (CRE)        4 family residential and commercial construction loans) and other land
Loans               loans. CRE loans also include loans secured by multifamily property and
                    nonfarm nonresidential property, where the primary source of repayment
                    is derived from rental income associated with the property or the
                    proceeds of the sale, refinancing, or permanent financing of the property.
Concentration       A concentration is a significantly large volume of economically related
                    assets that an institution has advanced or committed to a certain industry,
                    person, entity, or affiliated group. These assets may, in the aggregate,
                    present a substantial risk to the safety and soundness of the institution.
Contingency         A written plan that defines strategies for addressing liquidity shortfalls in
Funding (or         emergency situations. Such plans delineate policies to manage a range
Liquidity) Plan     of stress environments, establish clear lines of responsibility, and
                    articulate clear implementation and escalation procedures. Contingency
                    funding plans should be regularly tested and updated to ensure that they
                    are operationally sound. DSC uses the term contingency funding plan
                    and contingency liquidity plan interchangeably.
Federal Home        FHLBs provide long- and short-term advances (loans) to their members.
Loan Bank           Advances are primarily collateralized by residential mortgage loans, and
(FHLB)              government and agency securities. Community financial institutions
                    may pledge small business, small farm, and small agri-business loans as
                    collateral for advances. Advances are priced at a small spread over
                    comparable U.S. Department of the Treasury obligations.
Loan-to-Value       A ratio for a single loan and property calculated by dividing the total
                    loan amount at origination by the market value of the property securing
                    the credit plus any readily marketable collateral or other acceptable
                    collateral.
Non-core            Non-core funding generally consists of large time deposits (greater than
Funding             $100,000), borrowings, brokered deposits, federal funds purchased,
                    repurchase agreements, and foreign deposits.
Prompt              The purpose of PCA is to resolve the problems of insured depository
Corrective Action   institutions at the least possible long-term cost to the DIF. Part 325,
(PCA)               subpart B, of the FDIC Rules and Regulations, 12 Code of Federal
                    Regulations, section 325.101, et. Seq. implements section 38, Prompt
                    Corrective Action, of the FDI Act, 12 U.S.C. section 1831(o), by
                    establishing a framework for taking prompt supervisory actions against
                    insured nonmember banks that are less than adequately capitalized. The
                    following terms are used to describe capital adequacy: (1) Well
                    Capitalized, (2) Adequately Capitalized, (3) Undercapitalized,
                    (4) Significantly Undercapitalized, and (5) Critically Undercapitalized.

                    A PCA Directive is a formal enforcement action seeking corrective

                                             27
                                                                            Appendix 3

                           Glossary of Terms
                action or compliance with the PCA statute with respect to an institution
                that falls within any of the three undercapitalized categories.

Tier 1 (Core)   In general, this term is defined in Part 325 of the FDIC Rules and
Capital         Regulations, 12 C.F.R. section 325.2(v), as

                The sum of:
                • Common stockholder’s equity (common stock and related surplus,
                   undivided profits, disclosed capital reserves, foreign currency
                   translation adjustments, less net unrealized losses on available-for-
                   sale securities with readily determinable market values);
                • Non-cumulative perpetual preferred stock; and
                • Minority interest in consolidated subsidiaries;
                Minus:
                • Certain intangible assets;
                • Identified losses;
                • Investments in securities subsidiaries subject to section 337.4; and
                • Deferred tax assets in excess of the limit set forth in section
                   325.5(g).

Uniform Bank    The UBPR is an individual analysis of financial institution financial data
Performance     and ratios that includes extensive comparisons to peer group
Report (UBPR)   performance. The report is produced by the Federal Financial
                Institutions Examination Council for the use of banking supervisors,
                bankers, and the general public and is produced quarterly from data
                reported in Reports of Condition and Income submitted by banks.
Uniform         Financial institution regulators and examiners use the Uniform Financial
Financial       Institutions Rating System (UFIRS) to evaluate a bank’s performance in
Institutions    six components represented by the CAMELS acronym: Capital
Rating System   adequacy, Asset quality, Management practices, Earnings performance,
(UFIRS)         Liquidity position, and Sensitivity to market risk. Each component, and
                an overall composite score, is assigned a rating of 1 through 5, with 1
                having the least regulatory concern and 5 having the greatest concern.




                                        28
                                                                  Appendix 4

                              Acronyms
ADC      Acquisition, Development, and Construction
ALLL     Allowance for Loan and Lease Losses
BBR      Bank Board Resolution
C&D      Cease and Desist Order
CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity, and
         Sensitivity to Market Risk
CRE      Commercial Real Estate
DIF      Deposit Insurance Fund
DSC      Division of Supervision and Consumer Protection
FDI      Federal Deposit Insurance
FHLB     Federal Home Loan Bank
FIL      Financial Institution Letter
GDBF     Georgia Department of Banking and Finance
LTV      Loan-to-Value
MLR      Material Loss Review
OIG      Office of Inspector General
PCA      Prompt Corrective Action
SEC      Securities and Exchange Commission
UBPR     Uniform Bank Performance Report
UFIRS    Uniform Financial Institutions Rating System




                                     29
                                                                                        Appendix 5

                                    Corporation Comments




Federal Deposit Insurance Corporation
  550 17th Street NW, Washington, D.C. 20429-9990                Division of Supervision and Consumer Protection

                                                                         January 28, 2011
TO:              Stephen Beard
                 Assistant Inspector General for Material Loss Reviews,
                 Office of Inspector General

                 /Signed/
FROM:            Sandra L. Thompson [signed by Sandra L. Thompson]
                 Director

SUBJECT:         FDIC Response to the Draft Audit Report Entitled, Material Loss Review of
                 Crescent Bank and Trust Company, Jasper, Georgia (Assignment No. 2010-086)

Pursuant to Section 38(k) of the Federal Deposit Insurance Act, and as amended by the Dodd-
Frank Wall Street Reform and Consumer Protection Act, the Federal Deposit Insurance
Corporation’s Office of Inspector General (OIG) conducted a material loss review of Crescent
Bank and Trust Company (Crescent), which failed on July 23, 2010. This memorandum is the
response of the Division of Supervision and Consumer Protection (DSC) to the OIG’s Draft
Report received on January 7, 2011.

Crescent failed due to the Board and management’s insufficient oversight of the risk associated
with the high concentration of acquisition, development and construction (ADC) loans. Crescent
pursued an aggressive ADC lending strategy fueled by volatile funding sources, such as brokered
deposits, without implementing appropriate risk management, loan underwriting, and credit
administration practices commensurate with the increased risk. Capital levels were inadequate to
support the risk associated with the rapid growth in ADC lending and were insufficient to absorb
losses. Liquidity became strained as asset quality and capital levels declined.

From 2005 through 2010, the FDIC and the Georgia Department of Banking and Finance
conducted five risk management examinations. The FDIC also conducted off-site reviews and
one visitation. In 2006, examiners noted that Crescent’s strategic plan projected a rapid increase
in assets in 2007. Examiners recommended the implementation of risk management practices to
manage asset quality and ensure adequate liquidity and capital. At the 2008 FDIC examination,
liquidity levels were deficient, and examiners issued a Cease and Desist Order. At the 2009 joint
examination, asset quality and capital levels were critically deficient, and examiners noted that
Crescent’s Board and management failed to implement appropriate risk management practices.
The 2010 FDIC visitation concluded that a capital injection was imperative to ensure viability.

DSC issued a Financial Institution Letter (FIL) in 2008 on Managing Commercial Real Estate
Concentrations in a Challenging Environment that re-emphasized the importance of robust credit
risk-management practices and set forth broad supervisory expectations. Additionally, DSC
issued a FIL in 2009 on The Use of Volatile or Special Funding Sources by Financial Institutions
 that are in a Weakened Condition

Thank you for the opportunity to review and comment on the Report.


                                                    30
